No.

Supreme Court, U.S,
FILED

ge-7619

FEB 2 3 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CsKoJfVLS
—- PETITIONER
(Your Name)

vs.

(J.4.A:

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Ua'.WL ShJcjut (L&dA

P*/

C,~ C(Mx.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

tfr- -l. fi kiklfc, Una, EkLPc feo* swo
(Address)

iT)cl\c£& Ut

LA

(City, State, Zip Code)

____ /llflrvd-_____ I-^
(Phone Number)

\

^

[J\i

mom

m

....

“■

\

OFFlbfe OF THE CLERK
qiipbFME COURT, U.S.

r-

\

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW
QUESTIONS PRESENTED FOR REVIEW
PARTIES TO THE PROCEEDINGS
INDEX OF AUTHORITIES
INDEX TO APPENDICIES
JURISDICTION STATEMENT
CONSTITUTIONAL PROVISIONS AND. STATUES INVOVLED
CONSTITUTIONAL PROVISIONS AND STATUES INVOLVED
CONSTITUTIONAL PROVISIONS AND STATUES INVOLVED
STATEMENT OF CASE
A. COURSE OF PROCEEDINGS IN THE SECTION 2255 CASE
BEFORE THIS COURT

PAGE NUMBER
i
ii
iii
iv
1
1
1
2
3
4

4
-5

EXISTENCE OF JURISDICTION BELOW
REASONS FOR GRANTING THE WRIT
B. THE SIXTH CIRCUIT COURT OF APPEALS HAS DECIDED A
FEDERAL QUESTION IN DIRECT CONFLICT WIT^I THIS
COURT
ARGUMENTS AMPLIFYING.-REASONS SFDR_.GRANTING WRIT
FOURTH AMENDMENT VIOLATION OF UNITED STATES
CONSTITUTION ILLEGAL SEARCH AND SEIZURE

6
7
7

I

10

WHETHER SIXTH CIRCUIT ERRED WHEN IT DENIED COA
WHEN IT CAME TO COUNSEL'S ADVICE SURROUNDING THE
PLEA AGREEMENT THAT WAS OFFERED

15

COUNSEL WAS CONSTITUIONALLY INEFFECTIVE WHEN HE
FAILED TO RAISE ENHANCEMENTS ON DIRECT APPEAL
INCLUDING THE RESTITUTION IN THIS CASE
WHETHER THE SIXTH CIRCUIT ERRED IN DENIAL OF COA ON
THESE CLAIMS

20

TABLE OF CONTENTS

PAGE NUMBER

COUNSEL WAS CONSTITUTIONALLY INEFFECTIVE FOR FAILING
TO OBJECT TO PRESENTENCE REPORT ON GROUNDS PROBATION
OFFICER FAILED TO IDENTIFY VICTIMS AND FAILED TO
RAISE AN OBJECTION TO PRESENTENCE REPORT FOR FAILING
TO RECOMMEND RESTITUTION WHETHER THE SIXTH' CIRCUIT
ERRED WHEN IT DENIED THESE CLAIMS

24

WHETHER SIXTH CIRCUIT ERRED WHEN IT DENIED COA ON COUNSEL
FAILING TO CHALLENGE THE ILLEGAL SEARCH OF PETITIONER'S
EMAIL ACCOUNT

28

31
THE SIXTH CIRCUIT ERRED AFFIRMING THE DENIAL OF
PETITIONER'S § 2255 MOTION WHERE THE DISTRICT COURT FAILED
TO GRANT MOTION FOR DISCOVERY AND PRODUCTION OF DOCUMENTS
PURSUANT TO RULE 6 GOVERNING § 2255 PROCEEDINGS AND
EVIDENTIARY HEARING
CONCLUSION

33

PROOF OF SERVICE

34

APPENDIX TO PETITION

QUESTIONS PRESENTED FOR REVIEW

Was Counsel constitutionally ineffective when he failed to
challenge the search of Petitioner's vehicle in violation of
Petitioner's Fourth Amendment Right against illegal searchs
and seizures.
Was plea obtained in violation of Petitioner's due process ?
Was Petitioner's guilty plea entered voluntary ? Did the district
court error when it failed to personally address Petitioner in
open court and determine that the plea did not result from force,
threats, or promises ?
Counsel advised Petitioner to enter into an open plea, which
Petitioner received 240 months because of the advise of counsel.
Was Counsel constituionally ineffective for advising Petitioner
to not accept the plea agreement in this case, which was for 188
months ?
Was Counsel constitutionally ineffective for failing to object to
the number of victims in the Presentence Report before sentencing
and also failed to Object that the presentence report failed to
provide the district court with sufficient information to order
restitution ? The probation officer in this case failed to
recommend any amount of restitution. The probation officer also
failed to identify which of the 425 victims suffered an actual
loss for sentencing purposes.
Was Counsel constituionally ineffective for failing to raise the
number of victims in the Presetence Report on direst appeal, and
also the restitution amonut that was ordred in this case ?
Was Counsel constitutionally ineffective for failing to raise the
Leadership enhancement on direct appeal ?

i

Was Counsel ineffective for failing to challenge the illegal
search of Petitioner's email account ? In violation of his
Fourth Amendment Right againts illegal searchs and seizures.

Did the court's below commit reversable err denying Petitioner's
§ 2255 motion without conducting an evidentiary hearing to res­
olve the factual^disputes violating Petitioner's due process
rights ?

ii

LIST OF PARTIES

(X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

iii

PAGE NUMBER
INDEX OF AUTHORITIES
CASES
7
Machibroda v. United States, 368 U. S, 487 (1962),
8,19
United States v» Valentine, 488 F,3d 325 (6th Cir, 2006)
:8
McCarthy v. United States 394 U, S, 459, (1969),
8
United States v, Martinez-Molina, 64 F,3d 719 (1st Cir, 1995),
9
Brady v, United States, 379 U, S, 742, (1970),
9,16
Hill v, Lockhart, 474 U, S, 742, (1970),
11
Penn General Casualty Co, v, Pennsylvania, 294 U, S, 189, (1935),
Martin v, Indiana State Police, 537 F, Supp, 2d 974 (S,D, Ind, (2008), 11
12
Arizona v, Hicks, 480 U, S, 321, (1987),
United States v. Smith, 510 F,3d 641 (6th Cir, 2007),
United States v, Haynes, 301 F.3d 669 (6th Cir, 2002),
United States v, Edwards, 242 F,3d 928 (10 Cir, 2001),
Kemmelman v, Morrison, 477 U, S, 365 (1986),
Wong Sun v. United States, 371 U, S, 471 (1983).
Strickland v, Washington, 466 U, S, 668 (1984),
Pola v. United States, 778 F,3d 525 (6th Cir, 2015).
Smith v. United States, 348 F,3d 545 (6th Cir, 2003.
Lafler v. Cooper, 566 U, S, 156 (2012).
United States v, Stubblefield, 682 F,3d 502 (6th Cir, 2012),
United States v. Catoggio, 326 F,3d 323 (6th Cir, 2003),

STATUES
28 U,S,C. § 1251(1)
18 U,S,C. § 3664(a)
United States Sentencing Guidelines (2014). 2B1.1

13
13
13
14
15
15
18
18,19
19
22,24,25
23,26

1

2
2
2

Fed, R. Crim, P, 32(i)(3)(B)
28 U-S.C. § 2255
Fed. R. Crim, P, 11(b)(2)

3
4

iv

Petitioner, Nicholis Corey Garner, prays that this :Honorble .
Court will issue a writ of -aertiorari to review the orders,
responses,•rearraignment hearing transcripts and the Judgment of
the United States Court of Appeals for the Sixth Circuit, and
all proceedinds below.
INDEX TO APPENDICIES
APPENDIX A

Order denying COA from the Sixth Circuit Court of
Appeals, Case No. 20-5220, November 25, 2020,
attached hereto in support.

APPENDIX B

Petition for Rehearing - Extension of Time
attached hereto in support.

APPENDIX C

Order Sixth Ciruit denying Motion for Extension
of Time to fi le Petition for Rehearing attached
hereto in support.

APPENDIX D

Response in Opposition to Petitioner's Motion
for Certificate of Appealability by Government
attached hereto in support.

APPENDIX E

Order Adopting Report and Recommendation denying
Petitioner's Section 2255 motion attached hereto
in support.

APPENDIX F

Rearraignment Hearing Transcripts attached
hereto in_support.

APPENDIX G

Report and Recommendation of .the Magistrate Report
attached hereto in support.

1

II.
JURISDICTIONAL STATEMENT
The judgment of the United States Court of Appeals for the Sixth
Circuit was entered on November 25, 2020- The jurisdiction is
invoked under 28 U.S.C. § 1251 (l).

III.
CONSTITUTIONAL PROVISIONS, FEDERAL RULES OF CRIMINAL PROCEDURE,
UNITED STATES SENTENCING GUIDELINES, AND STATUES INVOLVED
1. The Fifth Amendment of the United States Constitution
provides:
"No person shall be ... deprived of life, liberty, or
property without due process of law; nor shall private property
be taken for public use, without just- compensation, "
2. The Sixth Amendment of the United States Consitutution
provides:
"In all criminal prosecutions, the accused shall enjoy
the right to .... be informed of the nature and charge of the
accusation; ... and have the assistance of counsel for his
defense."
3. The Fourth Amendment of the United States Constitution
provides:
"The right of the people to secure in their persons,
houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no warrant shall issue, but
upon probable cause, supported by Oath or affirmation, and ■_
particularly describing the place to be searched or things to be
seized."
4. The statues involved and under review are, Title 18, United
States Code § 3664(a) Procedure for issuance and enforcement of

1

order of restitution,"which provides: For orders of restitution
under this title, the court shall order the probation officer
to obtain and include in its presentence report or in a separate
report, as the court may direct, information ;for the court to
exercise its discretion in fashioning a restitution order."
"(d'i(l) under Title 18, United States Code § 3664 provides:
upon request of the probation officer, but not later than 60
days prior to the date initially set for sentencing, the attorney
for the Government after consulting, to the extent practicable,
with all identified victims, shall promptly provide the probation
officer with a listing of amounts subject to restitution."
5. The statue involved and under review are

Title 18, United

States Code, Federal Rules of Criminal Procedure, Rule 11(b)(2),
which states: "Ensuring that a plea is Voluntary. Before accepting
a plea of guilty or nolo contendere, the court must address the
defendant personally in open court and determine that the plea
is voluntary and did not result from force, threats, or promises
(other than promises in a plea agreement").
6. The statue involved and under review are

Title 18, United

States Code, Federal Rules of Criminal Procedure 32(i)(3)(B),
which states: "At sentencing the court must - for any disputed
portion of the presentence report or other controverted matter rule on the dispute or determine that a ruling is unnecessary
either because the matter will not affect sentencing or because
the court will not consider the matter in sentencing."
7. The United States Sentencing Guidelines under the review are,
(2014), U.S.S.G. 2Bl.l(b)(A)(i) Actual loss - "Actual loss"
means the reasonable foreseeable pecuniary harm that resulted
from the offense.(iii) Pecuniary Harm - "Pecuniary Harm" means
harm that is monetary or otherwise is readily measureable in
money. Accordingly, pecuniary harm does not include emotional
distress, harm to reputation, or other non-economic harm.
(iv) Reasonable Foreseeable Pecuniary Harm - For purposes of this

2

guideline, “reasonable foreseeable pecuniary harm** means pecuniary
harm that defendant knew of under the circumstances, reasonably
should have known, was a potential result of the offense.
8, The statue under which Petitioner sought habeas corpus relief
was 28 U.S.C. § 2255 which states in pertinent part:
§ 2255 Federal custody; remedies on motion attacking sentence,
and conviction,
A prisoner in custody under sentence of a court established by
Act of Congress claiming the right-: to be released upon the
ground that the setence was imposed in violation of the
Constitution or laws of the United States, ... or is otherwise
subject to collateral attack may move the court which imposed
the sentence to vacate, set aside or correct sentence.
Unless the motion and files and records of the case conlusively
show that prisoner is entitled to no relief the court shall
cause notice to be served upon the United States attorney, grant
a prompt hearing thereon, determine the issue and make findings
of fact and conclusions of law with respect thereto.

3

IV. .
STATEMENT OF THE CASE
On .March 12, 2013, a federal grand jury for the Eastern
District of Kentucky,'Lexington.Division returned a Nine (9)
count indictment charging Petitioner and other co-defendants
with charges of Conspiracy to Commit Wire Fraud. See 18 United
States Code, Section 1349; 18 U.S.C. § 1343. (Doc. # 152).
On December 4, 2013, Petitioner pleaded guilty to the
Conspiracy charge without a plea agreement.(Doc. 333). In June
2014, prior to sentencing Petitioner moved pro se to withdraw
his guilty plea. (Doc. # 413).
The district court denied Petitioner's request to withdraw
the plea and sentenced Petitioner on February 2, 2015, to a term
of 240 months imprisonment and ordered to pay $ 1,807,517.06 in
restitution.

(Docs. # 443, 591, 594, and 772).

During the guilty plea colloquy in this case the district
court made no effort whatsoever to determine if the plea did
not reshlt from force,1 threats, or promises, in violation of
Federal Rules of Criminal Procedure 11(b)(2). See Guilty Plea
Transcripts attached hereto as Appendix F
The district court failed to conduct a full direct voluntar­
iness examination in open court, thereby comprimising one of the
Rule 11's "core concerns" and undermined the validity of the
guilty plea.
/

V.
A. COURSE OF PROCEEDINGS IN THE SECTION 2255 CASE BEFORE THIS
COURT
On April 13, 2018, Petitioner filed a motion to vacate, set
aside or correct sentence and/or conviction pursuant to 28 U.S.C.

§ 2255 challenging the constitutionality of the conviction and"
sentence. Petitioner raised an issue. (Ground # 1 in his 2255
motion that his attorney was ineffective for failing to assure
4
v

/

/

Petitioner had a full and complete understanding and knowledge
of the offered plea to secure an involuntary rejection of a
favorable sentence as presented within the contents of that
agreement offered to serve 188 months); Petitioner raised an
issue. (Ground # 4 in his § 2255 motion that his attorney was
ineffective for failing to challenge the search and seizure of
his vehicle without a warrant or probable cause to do so in
violation of his Fourth Amendment Right against illegal searches
and seizures); Petitioner raised an issue. (Ground # 7 in his
§ 2255 motion Illegal Search of his Email Account without a
warrant or probable cause to.do so inviolation of Petitioner's
Fourth Amendment Right against illegal searches and seizures);
Petitioner raised an issue concerning Rule 11 violation.
(Ground # 8 in his § 2255 motion that his attorney coerced
Petitioner to plead guilty, and district court failed to
determine if plea did not result from force, threats, or
promises); Petitioner raised an issue. (Ground # 12 & 13 in his
§ 2255 motion that his attorney in the district court failed
to make an objection in the PSR before sentencing when it came
to identifying the number of victims being identified, and the
restitution amount, which the probation officer.failed to
identify the number of victims, and failed to recommend any
restitution in this case);
Petitioner raised an issue. (Ground # 6 & 15 in his § 2255
motion that his Appellant attorney failed to raise that .the
probation officer.failed to identify the number of victims in
the PSR, and failed to recommend any amount of restitution in
this case) ; ;Petition'er.-:r.aised an issue. (Ground # 14' in his
§ 2255 motion Appellant attorney failed to raised leadership
enhancement -on direct appeal).
On March 17, 2018, the Magistrate Judge Ordered the Govern­
ment to respond to 882 motion to vacte within 40 days. Petitioner
had 30 days to reply. See Order-Magistrate (Doc.
884).
On May .29, 2018, the Government filed a response to Petiti-

5

oner's motion to vacate. See Government's Response (Doc. # 898).
On July 3, 2018, Petitioner filed a relpy to Government's
response. See Petitioner's Relpy See (Doc. #

903).

On July 9, 2018, Petitioner filed a Sur-Relpy to Governs
ment's Response with photos of inside of his vehicle. Sde:(Doc.
904).
'

On November 5, 2018, Petitioner filed a Motion for Evident­

iary Hearing. See«.(Doc."# 920).
On November 5, 2018, Petitioner filed Motion for Discovery
attachments:'# 1 Exhibit 1, # 2 Interogatories to A. Stephens.
See (Doc. #

904).

On April 30, 2019, Magistrate issued a Report & Recommendat­
ion to deny Petitioner's § 2255 motion. See (Doc. # 963).
On May 20, 2019, Petitioner filed his objections to Report
and Recommendations. See (Doc. # 971).

On January 28, 2020, district court filed an order adopting
Report and Recommendations denying Petitioner's § 2255 motion.
See (Doc. # 1002). See also Appendix E district court's order
Adopting Report and Recommendation attached hereto in suuport.
On November 25 2020, the United States Court of Appeals
for the Sixth Circuit delivered its opinion affirming the district
courts denial of Petitioner's 28 U.S.C. § 2255 motion without
evidentiary hearing to resolve the factual disputes *
VI.
EXISTENCE OF JURISDICTION BELOW
Petitioner was indicted and convicted in the United States

6

Court for the District Court for the Eastern District of Kentucky,
Lexington Division, for Conspiracy to Commit Wire Fraud, under
18 U.S.C, § 1349; .18 U.S.C, § 1343, A § 2255 motion was appropr­
iately made in the convicting court and subsequently denied on
January 28, 2020, See Appendix E attached hereto in support, A
timely notice of appeal was filed to the United States Court of
Appeals for the Sixth Circuit.
VII.
REASONS FOR GRANTING THE WRIT
THE SIXTH CIRCUIT OF APPEALS HAS DECIDED A FEDERAL QUESTION IN
DIRECT CONFLICT WITH THE APPLICABLE DECISION OF THIS COURT.
1. The Sixth Circuit erred when it found that Petitioner did
not make a sustantial showing that his attorney coerced his into
pleading guilty. The Sixth Circuit improperly the law in Petiti­
oner's case according to the Machibroda Court because Petitioner
submitted declarations that contained a narrative of events that
took place outside the courtroom on December 4, 2013, there was
a meeting before Petitioner took the plea, which during this
meeting Petitioner's attorney coerced Petitioner to plead guilty
at this meeting. There were witnesses who was present at this
meeting that witnessed the conversation between Petitioner, and
his attorney which the record in this case could cast no real
light. See Machibroda v. United States, 368 U, S. 487, 494, 82 S,
Ct, 510, 7 L. Ed. 2d 473 (1962). In Machibroda, the Court determ­
ined that the district court could neither rely on files and rec­
ords of the trial court nor personal knowledge which the record
therefore could cast no real light because of occurances outside
the courtroom. See Motion To Vacate (Doc. s882 # 20, Declarations
Exhibit # 3-3(A) - 3(C)).
2. The Petitioner asserts he was coerced into pleading guilty
at this meeting on December 4, 2013, by his attorney. Petitioner
submitted declarations of what took place at this meeting, and
also provided the district court with the declaration from the
See United States
witness who witnessed the conversation.

7

V

Valentine, 488 F.3d 325, 333 (6th Cir. 2006). The record in this
case could cast no real light because the meeting took place out.
side the courtroom. See also 28 U.S.C. § 2255(b).
3. The Sixth Circuit opinion erred affirming district's
court's denial of Petitioner's 28 U.S.C. § 2255. Petitioner
asserts that the plea colloquy failed to satisfy the Rule 11
proceeding. See Sixth Circuit Order Appendix A Page # 3.
Which states: "The district court denied this claim after
quoting Garner's plea colloquy, in which the district court
explained the indictment, Garner's rights his, potential
sentence, and the like ensure that Garner understood the
ramifications of his guilty plea".
4. Petitioner contends that the district court failed to
conduct a full and direct voluntariness examination in open
court, pursuant to Federal Rule Criminal Procedure 11(b)(2),
through direct interrogation. Specifically addressing
Petitioner in open- court to determine if the plea did not result
from force, threats or promises.
The Supreme Court has similarity expressed the importance of
direct interrogation by the district court judge in determining
whether to accept the defendant's guilty plea:
To the extent that the district judge exposes the defend-,
ant's state of mind on the record through personal interrogation,
he not only facilitates his own determination of a guilty pleas
voluntariness, but also facilitates that determination in any
subsequent post-conviction proceeding based upon a plea was
involuntary. Both of these goals are undermined in properation
to the degree the district judge resorts to "assumptions" not
based upon recorded responses to his inquiries. McCarthy v.
. 459, 467, 22 L. Ed. 418 89 S. Ct. 1166
United States, 394 U.
(1969).
5. In United States v. Martinez-Molina, 64 F.3d 719, 734
(1st Cir. 1995)(The court held however, that the guilty pleas

8

of two defendants did not meet the test of Fed. R. Crim. P. 11,
because the district court failed to conduct a full^and direct
voluntariness examination in open court, thereby comprimising
one of the Rule 11's "core concerns" and undermining the validity
of the guilty plea).
6. Because guilty pleas amount not only to an admission of
cupable conduct but also to a waiver of constitutional rights,
the government may not obtain a plea by actual or threatening
physical harm or by mental coercion overbearing the will of the
defendant. Brady v. United States, 379 U. S- 742, 748-50, 90 S.
Ct. 1465, 25 L. Ed. 2d 747 (1970). To this end. a district court
must address the defendant personally in open court and determine
that the plea is voluntary and did not result from force, threats,
or promises (other than promises in a plea agreement). Fed. R.
Crim. P. 11(b)(2).
7. The district court in this case made no effort
whatsoever to determine if the plea did not result from force,
threats, or promises in this case before he accepted Petitioner's
plea. See 'Rearraignment Hearing Transcripts Appendix ,E attached
hereto in support.

Therefore, the district court violated the

Rule 11(b)(2), hearing.
8. Petitioner would not have pleaded guilty if counsel
had not coerced Petitioner into pleaded guilty. See Hill v.
Lockhart, 474 U. S. 52 , 60 (1985). Petitioner in this case
would have insisted on going to trial had he not been coerced
into pleading to the open plea.
9. The Sixth Circuit Court's erred affirming the denial
of Petitioner's § 2255 motion where the district court failed
to conduct an evidentiary hearing to resolve the factual
disputes, which if true, warrants habeas relief and the record
did not "conclusively show" that he could not establish facts
warranting relief under § 2255, which entitled Petitioner to

9

{

\

a hearing. See 28 U.S.C, § 2255(b). See also Sixth Circuit
Appendix A Page # 3. Sixth Circuit stated: "the letter cited
above, in which counsel explained the naked guilty plea and its
implications". Petitioner argues that the letter from counsel
should have no bearing on the Rule 11 proceeding as the Sixth
Circuit suggest because the district court is required to quest­
ion Petitioner in open court and determine that the plea did not
result from force threats, or promises in this case before it
accepted the plea. See Fed, R, Crim. P. 11(b)(2),
VIII.
ARGUMENT AMPLIFYING REASONS FOR GRANTING WRIT
FOURTH AMENDMENT VIOLATION OF UNITED STATES
CONSTITUTION ILLEGAL SEARCH AND SEIZURE
1. Petitioner's Fourth claim Petitioner was arrested on
September 15, 2012, during a traffic stop, after Indiana State
Police arrested Petitioner for speeding. During this traffic
stop it was discovered that Petitioner and another occupant had
outstanding arrest warrants from the Secret Service of United
States. Petitioner and occupant was immediately arrested and both
was placed in patrol vehicles. Petitioner's vehicle1 was driven to
another location by Indiana State police, and immediately search­
ed, The Secret Service was called to the scene during the search
of Petitioner's vehicle. Petitioner or occupant could not gain
access to the vehicle because Petitioner and occupant had been
placed in custody in patrol vehicles.
2. On September 15, 2012 the day of Petitioner's arrest,/
Indiana State Police seized Petitioner's vehicle and filed a
Criminal Complaint for Forfeiture in Indiana State court. Secret
Service searched Petitioner's vehicle without probable cause and
a warrant to do so which Secret Service needed in this particular
case because the Secret Service seized a (ledger), over $ 41,000.
00 in U. S. Currency, a Evolis Pebble Printer, and a brief case.
The (ledger) was seized and searched without a warrant, and used
as evidence in Petitiioner s case.

10

3. There was an In Rem proceeding pending in the State court
of Indiana during the time the Secret Service seized Petitioner's
property from out of his vehicle. The State court of Indiana was
the first and only court to assume jusrisdiction over the res,
which Indiana court may maintain and exercise that jurisdiction
to the exclusion to the federal court. See Penn General Casualty
Co. v. Pennsylvania, 294 U. S. 189, 195 55 S. Ct. 386, 390 79 L.
Ed. 850 (1935) The Secret Service in this case unlawfully turned
over Petitioner's property to federal authorities in the Eastern
District of Kentucky, Lexington Division. To legally transfer
seized property, Indiana Code "requires a motion be filed by the
prosecuting attorney, and an order from the court to transfer the
property'.' Martin v. Indiana State Police, 537 F. Supp. 2d 974,
987 (S. D. Ind. 2008),
4. Petitioner 's attorney never challenged the search or
seizure of Petitioner's vehicle. Counsel also failed to challenge
the search and seizure of the (ledger) that was seized and
searched. It was found by a State court that Petitioner's vehicle
was unlawfully seized in violation of his Fourth Amendment
Rights. Petitioner provided the district court with the evidence.
The State court of Indiana ordered to return Petitioner's vehicle
to its rightful owner. See Motion to Vacate § 2255 (Doc. # 882
# 6 Exhibit # 5 Forfeiture Complaint State of Indiana, # 7 Exh­
ibit # 6 Judgment in Favor of Defendants). The State of Indiana
stated: "After consideration of the evidence submitted by way of
exhibit(s) and/or testimony, the Court finds by greater weight
of the evidence that insufficient evidence was presented to
conclude that the 2005 Nissan Maxima was knowingly used to
facilitate the transportation of instruments and equipment to
obatin stolen property in excess of $ 100.00, or any crime in
Indiana". Therefore, counsel was Constitutionally ineffective
for failing to challenge the search and seizure of Petitioner's
vehicle.
5. The government's justification for counsel's failure to

11

pursue this issue concerning the seizure of the (ledger) was the
"incriminating ledger" was found in plain view in this case.
See Government's Response to Petitioner's § 2255 motion (Doc. #
898 Pg. # 12 Id. # 7854). The government states; "incriminating
ledger ... found in plain view". See also Counsel's Affidavit
to Petitioner's § 2255 (Doc. # 898-1 Pg. # 3 Pg. Id. # 7865
Paragraph # 6). Counsel stated: "Contrary to Mr. Garner's
assertion, counsel looked at the stop determine there was prob­
able cause for the same and that as a result of Mr. Garner's
own sloppy activities by having left fruit and tools of his crim­
inal behavior in plain view subject him to a lawful search and
seizure of his vehicle".
6. Counsel was Constitutionally ineffective for failing to
pursue this issue because of his misinterpretation of the law,
under the plain view doctrine namely, the requirement that the
nature of the article be immediately apparent to police. See
Arizona v. Hicks 480 U. S. 321, 107 S. Ct. 1149 94 L. Ed. 2d
347 (1987). The "incriminating nature" of a piece of property
is only immediately apprent when police officers have probable
cause to believe that property may be evidence of a crime.
Immediately apparent means these officers looked at the (ledger)
"without touching" the (ledger). The district court in this case
gives a description of the (ledger) as a "black leather notebook'.'
See district court's Memorandum Opinion Order (Doc. # 558 Pg. #
28 Pg. Id. # 3167). The district court states: "In the car with
him and Holley, were many itmes but most damning the black
leather notebook".
7. Petitioner's attorney had a duty under the United States
Constitution to effectively represent Petitioner in this case,
but failed to do so because of his misinterpretation of the law
under the plain view doctrine. The warrantless seizure of the
(ledger) was unconstitutional under the plain view doctrine, and
the "black leather notebook" was closed which had to be moved and
read in order for its incriminating nature to be determined,

12

which the required a warrant to search and seize * The search and
seizure violated Petitioner's Fourth Amendment Rights against
illegal searches and seizures.
8, The government misinterprets the law surrounding the all­
eged inventory search of Petitioner's vehicle, because it was
found by the State court of Indiana whom had jurisdiction over
the seizure of the vehicle that the vehicle was unlawfully seiz­
ed, See Government's Response § 2255 (Doc, 898 Pg, # 11 Pg, Id,
# 7848)("lt is settled law that police may conduct a inventory
search of an automobile that is being impounded without running
afoul the Fourth Amendment. United States v Smith, 510 F.3d 641,
650 (6th Cir, 2007),”
9, The law in support of the government's argument is mis­
placed concerning this alleged inventory search. In the Smith
case the governement cites the facts of that case is distinguishable from that of Petitioner's case. The officers were aware
of Smith's use of his vehicles in his drug trafficking activties,
and because the had information indicating Smith stored cocaine
at his residence, there was a "fair probability” that contraband
-- in this case, the cocaine referenced by the tipster -- See
Smith 510 F.3d 650 would be found in the pontiac,
10, According to the Indiana State court judgment, the Ind­
iana State Police had no information . or evidence that suggested
the vehilce in question conatined any contraband.
See United
States v, Haynes, 301 F,3d 669, 678 (6th Cir, 2002); United
States v, Edwards, 242 F,3d 928, 939 (10th Cir, 2001), In both
cases Haynes and Edwards officers had no information of evidence
that suggested the vehicle in question contained contraband,
therefore, the Indiana State did not have probable cause to
seize and search Petitioner's vehicle, the warrantless invent­
ory search was illegal. The Petitioner in this case has never
asserted that his attorney failed to investigate the allegedly
illegal search and seizure as the Sixth Circuit suggested in its

13

Page # 3. Petitioner
order* See Sixth Circuit Order Appendix A
contends that the seizure was unlawful according to the State
court's judgment that was provided as evidence in this case,
therefore, the warrantless inventory seacrch was illegal in this
case.
11. The Sixth Circuit alleges the district court denied
Petitioner's claim because he could not show how he was
prejudiced by counsel failing to pursue this issue concerning
the search and seizure of his vehicle. See Sixth Circuit Order
Appendix A Page # 3. The Petitioner could show that he was pre­
judiced by counsel's performance because the (Ledger) that was
seized and searched in this case was used as evidence. See dist­
rict court's Memorandum Opinion (Doc. # 558 Pg. # 17-18 Pg. Id.
# 3156). The district court stated: "Agent Lowe used the ledger
as a starting point for his calculation o loss. He explained on
cross-examination that the ledger "is the only complete record
that we have" the ledger which could be verified in large part,
in an amount of 1,301,132.32 over the course of 138 days".
See Counsel's Affidvait § 2255 (Doc. # 898-1 Pg. # 4 Pg. Id. #
7866 Paragraph # 9). Counsel states: The Imfamous ledger was
found in the vehicle to which Mr. Garner had in his possesssion
in Indiana. The ledger provided a detailed coffession of Mr.
Garner and his associates unlawful transactions violating the
basic mail and wire fraud statue".
12. Petitioner received a victim enhancement from the use of
the ledger. See Petitioner's PSR Page # 34 Objection No. 9. sixlevels. Petitioner's guideline range with the use of the ledger
is 36, guideline range is 292-365. The victim enhancement for
six-levels would have reduced Petitiioner's sentence to offense
level 30. Petitioner had a Criminal History Score V. Petitioner's
guideline range without the use of the ledger that was illegally
seized and searched without a warrant should have been 151-188
See Kemmelman v. Morrison, 477 U. S. 365, (1986). Absent
months.
excluable evidence specifiaclly the (ledger) in this case

14

Petitioner can prove that counsel was Constitutionally ineffect­
ive for failing to challenge the seizure and search of Petition­
er's vehicle, and the seizure and search of the (ledger), there­
fore, Petitioner was prejudiced by counsel's performance.
13. Petitioner asserted that the district court's decision
is debatable among jurist of reason because Petitioner's vehic­
le was unlawfully seized and searched in without probable cause
to. do so in violation of his Fourth Amendment Right against
illegal searches and seizures. Therefore, the (ledger) came
from Petitioner's vehicle as a product of fruit from a poison­
ous tree, and should be suppressed. See Wong Sun v. United
States, 371 U. S. 471, (1983).

WHETHER SIXTH CIRCUIT ERRED WHEN IT DENIED COA WHEN IT CAME TO
COUNSEL'S ADVICE SURROUNDING THE PLEA AGREEMENT THAT WAS OFFERED
1. Petitioner's first claim as it relates to the plea agree­
ment that was offered in this case, which he maintains that his
[attorney was Constitutionally! ineffective when he failed to
assure that Petitioner had a fulliand complete understanding
and * knowledge of the plea offered to secure an involuntary and
intelligent rejection of a favorable sentence as presented in
the contents of the offered agreement. This letter in which the
Sixth Circuit relies in support does not explain if counsel in
fact determine whether Petitioner's attorney had fully informed
Petitioner of the nature and contents of that agreement. See
Sixth Circuit Order Appendix A
Page # 2. The Sixth Circuit
erred because the letter from counsel does not undermine
Petitioner's claim.
2. Petitioner contends; that his attorney was Constitutionally
ineffective. Such claims are guided by the now familiar twoelement test set forth by Supreme Court in Strickland v.
Washington, 466 U. S. 668, 80 L. Ed. 674 104 S. Ct. 2052 (1984).

15

First a petitioner must prove that counsel's performance was
deficient, which counsel made errors so serious that counsel
was not functioning as counsel guranteed the defendant by the
Sixth Amendment. Id. at 687. The Court explained that to est­
ablish deficient performance a petitioner must identify acts
that were outside the wide range of professional competent
assistance. Id. at 690.
3. Second a petitioner must show that counsel's performance
prejudiced petitioner. A petitioner may establish prejudice by
counsel's errors were so serious as to deprive defendant of a
fair trial. The Supreme Court has applied this test to evaluate
the performance of attorney's representing guilty plea defend­
ant's with special attention to the second element:
The second element or prejudice, requirement ... focuses on
whether counsel's constitutionally affected the outcome of the
plea process. In, other words, in;order to satisfy the prejudice
requirement, the defendant must show that there is a reasonable
probability that, but for counsel's arrors, he would not have
pleaded guilty and would have insisted on going to trial.
Hill v. Lockhart, 474 U. S. 52, 59 88 L. Ed. 2d 203, 106 S. Ct.
366 (1985).
4. With respect to the first prong under Strickland, the
Petitioner's attorney advised Petitioner not to execute the
plea agreement that was offered in this case. See Reply Brief
on COA. Case No. 20-5220 (Page. # 8 Exhibit # 1 Letter from
Counsel Page # 2 of said Letter). Counsel stated: "I would, in
f ac t

advise you not to execute the plea agreement".

5. With respect to the second element or prejudice requirement under Hill v. Lockhart, supra. Petitioner in this case
would not have taken the (open plea), and would have insisted
on entering the (formal plea) with the government to serve 188
months. The Petitioner did not enter into the (formal plea)
with the government because counsel advised Petitioner not to

16

execute that agreement. Petitioner took an (open plea) because
counsel advised Petitioner to, which Petitioner received 240
months, which is 60 months higher than the (formal plea)
rejected.
6, The Sixth Circuit erred when it relied on the letter
from counsel to support Petitioner's denial of his COA, See
Sixth Circuit Order Appendix A Page # 2-3. Sixth Circuit
states: "in the letter, counsel explained why he believed that
the government's offer - which likely.carried the statutory
maximum sentence of 240 months"
According to the government's response on COA. See Response
of United States in Opposition to COA. See Appendix D Page
# 5, Government states: " Moreover, Garner,"declined to enter
the offered plea agreement, because the agreement contemplated
"the statutory maximum sentence of twenty years". This statem­
ent from the government undermines the letter from counsel
which the Sixth Circuit relied on to deny Petitioner's COA.
The government stated "the agreement contemplated the statut­
ory maximum sentence of twenty years". Contemplated means consider thoughtfully. The, government in, this case never offer­
ed a plea-agreement for the statutory maximum sentence of
twenty years. There is no plea agreement filed in the record in

\

this case,
7, The government in this case is attempting to obfruscate
Petitioner's claim that the plea agreement that was offered was
for 188 months, according to their response "the agreement
contemplated the statutory maximum sentence of twenty years".
Petitioner submitted a Affidavit in his § 2255, which the
government nor counsel denies Petitioner's claim that the
plea offered in this case was a plea agreement to serve 188
months imprisonment. See
Exhibit # 1 Ground # ONE
"Mr, Stephens advised me
that is his professional

Motion to Vacate (Doc. # 882 # 18 Dec
Plea Agreement), Petitioner stated:
on all occasions (at least three times)
opinion was for me not to accept the

formal agreement to serve 188 months; Mr, Stephens advised me

17

that in his professional opinion was to take an (open plea) an
argue at sentencing because the government was not correct on
their sentencing calculations.
Mr. Stephens advised me that if I take an (open plea) that
there is no way I could get over 160 months. I asked Mr. Step­
ans what ny base level offense, Mr. Stephens advised me that
he did not know what my base level offense was this created a
conflict between Mr. Stephens and I" See Pola v. United States,
778 F.3d 525, 535 (6th Cir. 2015)(requiring a hearing based on
the record and affidavit); Smith v. United States, 348 F.3d 545,
553 (6th Cir. 2003)(ln a system dominated by the sentencing
guidelines, we do not see how sentence exposure can be fully
explained without completely exploring the ranges of penalties
under likely guideline scoring scenarios, given the information
available to defendant and his lawyer at the time. See United
States v. Day, 969 F.2d 39, 43 (3rd Cir. 1992)(observing that
"the Sentencing Guidelines have become a critical, and in many
cases, dominant facet of federal criminal proceedings such that
familiarity with the structure and basic content of the Guide­
lines (including the definition and implications of career off­
ender status) has become a necessity who seek to give effective
representation). The criminal defendant has a right to this in­
formation just as he is entitled to the benifit of his attorn­
ey's superior experience and training in criminal law).
Petitioner's attorney was therefore Constitutionally ineffective
when he failed to provide Petitioner with sufficient informat­
ion to allow Petitioner to make an informed decision whether or
not to take the (open plea) in this case. Counsel at the time
he advised Petitioner to take the (open plea), he could not in­
form Petitioner of what his guidelines would be if Petitioner
decided to take an (open plea).
8. The Petitioner's attorney did respond to Petitioner's
§ 2255 in a affidavit, which counsel does not deny Petitioner's
claim that the plea agreement offered in this case was a plea
agreement for 188 months. Petitioner's attorney affidavit, which

18

conclusory does not address the fact that counsel advised Petit­
ioner not to execute the plea agreement and why according to his
letter. See Reply Brief on COA. Case No. 20-5220 (Page # 8 Exhibit # 1 Letter from Counsel Page # 2 of said Letter). Counsel
stated: "I would, in fact, advise you not execute the plea agr­
eement”. See Counsel's Affidavit in Response to Petitioner's
§ 2255 (Doc. # 898-1 Pg. # 1 Pg. Id. 7863). Counsel states:
"Mr. Garner essentially alleged that affiant failed to assure
that Defendant had a full understanding and knowledge to the
plea offered to ... secure an involuntary (sic) and intelligent
rejection of a favorable sentence as presented in the context
of the offered plea agreement”.
9. Counsel was Constutionally ineffective, which in his
affidavit counsel does not discuss the amount of time that was
offered in the plea agreement or even discuss that counsel
fully-informed Petitioner the nature and contents of the plea
agreement that was offered in this case. See Smith v. United
States, 348 F«3d 545, 552-53 (6th Cir. 2003); A heatingvin ” thi s
case was still necessary in order to determine whether Petition­
er's attorney had fully informed him of the nature of the plea
agreement. The Sixth Circuit erred in this case, it should have
at least remanded this case back to the district court to hold
an evidentiary hearing to determine the factual issues
surrounding the plea offer because there was no plea agreement
filed in this case, and the government contemplated a plea
agreement for twenty years. See 28 U.S.C. § 2255(b). The files
and records fail to show the Petitioner was entitled to no relief. See Valentine v. United States, 488 F.3d 325, 333 (6ht
Cir. 2007).
10. Finally, a resonable jurist would debate the Sixth
Circuit's decision to deny the COA because the plea agreement
that was offered in this case was for a term of 188 months in
imprisonment. Petitioner received a 240 month sentence. See
Lafler v. Cooper, 566 U. S. 156, 132 S. Ct. 182, (2012).

19

ISSUE
COUNSEL WAS CONSTITUTIONALLY INEFFECTIVE WHEN HE FAILED TO RAISE
V '

VICTIM ENHANCEMENT ON DIRECT APPEAL, LEADERSHIP ENHANCEMENT!
AND THE IMPOSITION OF RESTITUION ON DIRECT APPEAL
WHETHER THE SIXTH CIRCUIT ERRED WHEN IT DENIED COA
1. Petitioner objects to the Sixth Circuit's denial of his
COA when it comes to claims 6, 14, and 15, See Sixth Circuit's
Order Appendix A
Page # 4, In, Petitioner's Sixth claim,
Petitioner asserts that his attorney failed to raise this issue
when it came to the restitution portion of his sentence as
requested by Petitioner, and counsel was Contitutionally ineffetive for failing to raise this issue. The Sixth Circuit erred
when it overlooked this issue in the record. Petitioner's
attorney in the district court objected to the entry of restit­
ution on the grounds that the requirements of the Manadatory
Victims Restitution Act (MVRA-), had totally been ignored.
See Counsel's Affidavit in Response to § 2255 (Doc, 898-2
(Page, # 5 Pg. Id, # 7873). Counsel stated: " Affiant specifica­
lly objected to the entry of a restitution order on the basis
that the requirements of, 18 U.S,C, § 3664 had been ignored:
Additionally, the statue does require the court to -- one
other thing, judge, about the losses, is the way I read
the statue, and I am looking specifically at section
3664, it anticipates that the probation officer actually
creates a report, and that is to be supplied, information
is to be supplied, by the U, S, Attorneys Office and then
U.S. Probation Office, and it says
provided to the U,S,
they are to submit a report with a complete accounting.
Now, I don't think what we have what we have here is a
complete accounting.
We have a chart here that proports to have an accounting,
but there are 202 instances where there is some documenta-

20

tion provided, and I only found actual supporting documen­
tation from the actual victims for 32 victims.
The 32 victims total amount is like $ 94,657.00 so I don't
think it necessarily meets that".
2. The Sixth Circuit relied on the "thoroughness of the
district court's proceedings realated to" this issue. Garner,
2020 WL 430809, at * 7". Which the Sixth Circuit erred when
it relied on the district court's opinion rather the the
presentence investigation report. Had the Sixth Circuit reviewed
the presentence report it would have found that the probation
officer in this case never recommnended any amount of restitut­
ion. See Sealed Presentence Investigation Report (Doc. .# 628
Filed February 18,^2015, Page 30 of PSR, Paragraph # 116
Restitution). The district court in this case abused its
discretion when it ordered $1,807,517.06 in restitution without
any information in the presentence report. See Fed. R. Crim. P.
32(c)(1)(B) Restitution. If the law permits restitution, the
>
I
>
*
probation officer must conduct an investigation and submit a
report that contains sufficient information for the court to
order restitution.
3. Petitioner objects to the Sixth Circuit's order because
prejudice can be shown. See Sixth Circuit's Order Appendix

A

Page # 4. The Petitioner in this case received an 18 level
enhancement for the actual loss amount in this case. According
to Petitioner's attorney affidavit and the evidence in this case
only 32 victims suffered an actual loss total amount $ 94,657.00
which this amount would have reduced Petitioner's offense level
under U.S.S.G. 2B1.1, to 8 levels more than 70,000 less than
200,000. The victim adjustment should have been level 2. The
Guidelines range should have been level 22. Criminal History
Score V. The Guidelines range should of been (77-96 months.

21

4. Petitiioner objects to the Sixth Circuit's order because
the Sixth Circuit and the district court continue to obfruscate
Petitioner's claim regarding his sentence when it comes to the
loss amount, and his ineffective assistance of counsel on direct
appeal* See Sixth Circuit Order Appendix A Page # 4* Sixth
Circuit stated: "Counsel did raise an argument about the related
issue of the district, court's calculation of loss which this
court affirmed. Id."
Counsel was inffective on direct appeal because had he raise the
issue that the presentence report never recommended 2.8 million
in restitution to support the Petitioner sentence the Sixth
Circuit would had been able to review this sentencing error in
the presentence resport had counsel raise this issue.
The district court ultimatley issued 1.8 million in restitution
which the presentence report never recommended this amount for
restitution. The evidence revealed that only 32 victims provided
supporting documentation that suffered a pecuniary loss under
the sentencing guidlines. See United States v. Stubblefield,
682 F.3d 502, 510 (6th Cir. 2012)(Whether a person is a victim
under the guidelines for six-level increase if the offense
involved 250 or more' victims. A victim is a person who sustained
I
I
I
I
!
any part of the actual Toss. U.S.S.G 2B1.1 cmt, n. 1 Actual
loss is the reasonable forseeable pecuniary harm that resulted
from the offense. U.S.S.G. 2B1.1 cmt. n. 3(A)(i).
The evidence revealed only 32 victims suffered an actual loss
for sentencing purposes with an actual loss amount for restit­
ution for $96,657.00. None of this information is included in
the Petitioner's presentence report. Counsel was ineffet-iVe.
on

direct appeal when he failed to raise the issue concerning
the probation officer for'.failing to identify the number of

victims for sentencing purposes and the restitution portion of
his sentence.
The Petitioner in this case received a six-level victim enhancer
ment when the evidence revealed on 32 victims suffered a actual
loss, which the Petitioner should have received two-level

22

adjustment for 32 victims.
5. The victims in this case had never been identified. The
government in this case never provided the probation officer
with a list of victims and amounts subject to restitution so
that the probation officer can seek confirmation of these
amounts from identified victims. Restitution can only be imposed
to the extent that the victims of a crime are actually identifi­
ed. See United States v. Catoggio, 326 F.3d 323, 328 (2nd Cir.
2003) See also 18 U.S.C. 3663(c)(1)(B)(specifying that the
(MVRA) applies when an identifiable victim:or victims has
suffered a physical injury or pecuniary loss. This requires the
probation officer to obtain a; list of victims and amounts
subject to restitution and seek confirmation of these amounts
from identified victims. See 18 U.S,C.§ 3664(d)(1)-(2).
6. Petitioner objects to Sixth Circuit's order regarding the
fourteenth and fifteenth claims. See Sixth Circuit's Order
Appendix A Page # 4. Petitioner's attorney was Constitutional
lly ineffective for failing to raise both-sentencing enhance:^
ments. The district court denied these claims, because even if
those enhancements had not been applied, it would not have
have reduced his advisory guideline range under the Guidelines
below the statutory maximum sentence Garner received. See
Garner, 2019 WL 7899167, at *6 n.3.
The Sixth Circuit overlooked the record in this case as both en­
hancements would have reduced Petitioner's sentence below the
statutory sentence of 240 months the Petitioner received.
Had the Sixth Circuit reviwed the record in this case specific­
ally the presentence report it would- have found that the Petit­
ioner's offense level was a 36, the guideline range was 292-365.
The victim enhancement for six-levels would have reduced the
Petitioner's sentence to an offense level of 30. Petitioner's
guideline range should have been 151-188 months, with the sixlevel enhancement excluded it would have reduced Petitioner's
statutory maximun sentence of 240-months Petitioner received.

23

7. The Sixth Circuit erred when it denied CDA stating
that the leadership enhancement would not have reduced
Petitioner's sentence. See Sixth Circuit's Order Appendix
A Page # 4. Had the Sixth Circuit reviewed the record in
this case specifically the presentence report it would have
found that Petitioner's offense level was a 36, the guide­
line range was 292-365. The victim enhancement for sixlevels would have reduced Petitioner's offense level 30.
Petitioner's guideline range should of been 151-188, months,
with the six-level enhancement excluded it would have red­
uced Petitioner's sentence below the statutory maximum
sentence of 240-months.
With the one-level for leadership enhancement it would have
reduced Petitioner's sentence to 140-175, months, well below
the statutory maximum sentence Petitioner received.
Therefore, the Sixth Circuit erred when it concluded that
counsel was not Constitutionally ineffective on direct
appeal because counsel was ineffective when he failed to
raise these two enhancments on direct appeal. Petitioner was
prejudiced by counsel's performance. A reasonable jurist,
would debate the victim enhancement because the probation
officer failed to identify which victim suffered a pecuniary
loss under the guidelines. See United States v. Stubblefield,
supra.
ISSUE
COUNSEL WAS CONSTITUTIONALLY INEFFECTIVE WHEN HE FAILED TO
OBJECT TO THE PRESENTENCE REPORT ON THE GROUNDS THAT
PROBATION OFFICER FAILED TO IDENTIFY WHICH VICTIM SUFFERED
A PECUNIARY LOSS BEFORE SENTENCING FOR SENTENCING PURPOSES
AND COUNSEL FAILED TO RAISE AN OBJECTION THAT THE REPORT
NEVER RECOMMENDED ANY RESTITUTION
WHETHER SIXTH CIRCUIT ERRED WHEN IT DENIED COA ON THESE CLAIMS
1. Petitioner objects to Sixth Circuit's Order regarding
his twelfth and thirteenth claim against counsel for being

24

Constitutionally ineffective for failing to make the appropriate
objections during the presentence investigation phase. Counsel
failed to object to the presentence investigation report before
sentencing specifically objecting that the probation officer
failed to identify the number of victims that suffered a pecun­
iary loss for sentencing purposes, and those victims amounts
subject to restitution.
2. Counsel's performance was deficient under the circumst­
ances because Petitioner made an objection, but not the approp­
riate objection that should have been made by counsel.-See
Sealed Presentence Report (Doc. # 628 Objection No. 9, and
probation officers response). Counsel should have further
objected to the response of the probation officer because the
probation officer failed to identify which of the 425 victims
suffered a pecuniary loss under the guidelines. See United
States v. Stubblefield, 628 F.3d 502, 510 (6th Cir. 2012)
(whether a person is a victim under the guidelines for a sixlevel increase if the offense invovled 250 or more victims.
A victim is a person who sustained any part of actual loss.
U.S.S.G. 2B1.1 cmt. n. 1. Actual loss is the reasonable fores­
eeable pecuniary harm that resulted from the offense. U.S.S.G.
2B1.1 cmy. n. 3(A)(i)).
3. Counsel was also Constitutionally ineffective when he
failed to make an objection to the presentence report because
it never recommended any restitution in this case. See Fed. R.
Crim. P. 32(c)(1)(B) Restitution. If the law permits restitut­
ion, the probation officer must conduct an investigation and
submit a report with sufficient information for the court to
order restitution. The victims in this case has never been
identified by the probation officer. See Government's Response
to Petitioner's § 2255 (Doc. # 898 Pg. # 13 Pg. Id. # 7855).
Government states: "Agent Lowe further explained how these
records demonstrated that more than 512 separate victims had
wired money and lost money as part of the scheme even though

25

he was unable to speak directly with all of them", Petitioner
argues the issue with this case is the district court failed to
order the Probation Office to conduct a full investigation when
it came to the restitution, and identifying these victims that
suffered an actual loss for sentencing purposes, and the
restitution portion of Petitioner's sentence. The government
acknowledeges the district court's failure to order the Probat­
ion Office to conduct a full investigation when it. came to the
restitution. See Government's Respsonse to Petitioner's § 2255
(Doc. # 898 Pg. # 14 Pg. Id. # 7856). Government states: "Lyons
did raise with the district court its failure to require the
Probation Office to follow 18 U.S.C. § 3664 by conducting a full
investigation and offering sufficient information on restit­
ution" .
4. Mr. Lyons did not represent Petitioner during the pre­
sentence investigation phase of Petitioner's case. Which Mr.
Lyons objection that he raised proves that counsel that
represented Petitioner during the presentence investigation
phase was Constitutionally ineffective for failing to raise the
objection that the district court is required to order the
Probation Office to conduct a full investigation and offer
sufficient information on restitution. Restitution can only
be imposed to the extent that the victims of a crime are
actually identified. See United States v. Catoggio, 326 F.3d
323, 328 (2nd Cir. 2003), See also 18 U.S.C. 3663(c)(1)(B)
(Specifying that the (MVRA) applies when an identifiable victim
or victims has suffered a physical injury or pecuniary loss.
This requires the probation officer to obtain a list of the
victims and amounts subject to restitution and seek confirmat­
ion of these amounts for identified victims. See 18 U.S.C. §
3664(d)(l)-(2).
5. Petitioner was prejudiced by counsel's performance. Had
counsel made the appropriate objections at the appropriate time
the outcome of Petitioner's case would have been different.

26

The record,in this case will speak for itself* The victims
had never been identified for sentencing purposes under the
guidelines, and there is no information in the Petitioner's
presentence report to support the amount of restitution that
was ordered in this case, which the district court ordered
1.8 million in restitituion without any. information in the
presentence report to support'this amount. See Sealed
Presentence Report (Doc. # 628 Filed February 18, 2015, Page
# 30 of PSR, Paragraph # 116 Restitution). Probation Office
never recommended any restitution in this case.
Petitioner was sentenced on the basis of inaccurate information
in violation of his due process because of counsel's failure
to raise the proper objections at the appropriate time.
At the restitution hearing in this case which was held on
April 20, 2015, it was revealed that only 32 victims suffered
an actual loss total amount $ 94,657.00. None of this informat­
ion is included in the Petitioner's PSR when it comes to these
32 victims actual loss amount $ 94.657.00.
6. Prejudice can be shown by counsel's performance. See
Mr. Lyons Affidavit to Petitioner § 2255 (Doc. 898-2 Pg. # 5
Pg. Id. # 7873). Counsel states: "I only found actual support­
ing documentation from the actual victims for 32 victims.
The 32 victims total amount is like $ 94,657.00". This amount
would have changed Petitioner's guidelines range to 8 levels
enhancement for more than 70,000 less than 200,000. The victim
enhancement would have been two-levelsi instead of six-levels,
the guideline range should have been level 22 offense. Criminal
History Score V. The guidelines range should have been 77-96
months.

27

ISSUE
COUNSEL WAS CONSTITUTIONALLY INEFFECTIVE FOR FAILING TO CHALLENGE
THE ILLEGAL SEARCH OF PETITIONER'S EMAIL ACCOUNT IN VIOLATION OF
PETITIONER'S FOURTH AMENDMENT RIGHT AGAINST ILLEGAL SEARCHESS
WHETHER THE SIXTH CIRCUIT ERRED WHEN IT DENIED COA ON THISCCLAIEM

l

1, Petitioner objects to Sixth Circuit's order regarding
Petitioner's seventh claim- Counsel was Constitutionally ineff­
ective for faling to challenge the search of his email account,
without probable cause and a warrant to do so- See Sixth
Circuit's order Appendix A Page # 3.
This search violated Petitioner's Fourth Amendment right of the
United States Constitution against illegal searches and seizures
which provides:
"The fight of the people to^ secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no warrant shall issue, but upon
probable cause, supported by Oath or Affirmation, and particul­
arly describing the place tobe searched or things to be seized".
Petitioner contends that there was never a warrant filed in this
case. Therefore, Counsel was Constitutionally ineffective for
failing to challenge the searhc of Petitioner's email account
damiya22@rocketmail- com.
2- Petitioner objects to Sixth Circuit's order because
Petitioner can show prejudice- See Sixth Circuit's Order a
Appendix A Page # 3. Counsel was Constitutionally ineffective
for failing to object to the transactions that was used in the
email account damiya22@rocketmail.com for sentencing purposes.
Those transactions in the email account contained an incomplete
record of transactions, and could not be used for sentencing
purposes.
3. There was never a presentence investigation performed

28

concerning the email account damiya22@rocketmail.com to ident­
ify what kind of loss this was under the definitions of the
guidelines. These losses were verified by Agent Lowe, and not
the probation office. See district court's Memorandum Opinion
& Order (Doc. # 558 Pg. 14 Pg. Id. # 3153). district court
stated: "Agent Lowe identified and verified approximately 1.2
million in domestic, transactions in 614 days".
4. The PSR in this case does mention the Conspiracy started
August 26, 2010, thru September 15, 2012, but only uses the
ledger to calculate the loss in the PSR. The PSR does not
mention the email account but the district court used
Agent Lowe's testimony regarding the email account to sentence
the Petitioner violating Petitioner's due process. See
district court's Memorandum Opinion & Order (Doc. # 558 Pg. #
14 Pg. Id. # 3153). district court stated: "Agent Lowe test­
ified about an email account outside of the Conspiracy
August 26, 2010 thru April 2012". These transactions that was
contained in the email account was used to calculate Petition­
er's sentence but the PSR does not list the transactions that
was inside the email account or the email account damiya22@rocketmail.com, that is associated with those transactions
form August 26, 2010 thru April 2012.
The PSR does not identify what kind of losses these transactions
were under the defintions of the guidelines. See (2014) Guidel­
ines. U.S.S.G. 2B1.1(b)(1(A)(i). Actual loss defined - Actual
loss means the reasonable foreseeable harm that resulted from
the offense, (ii) Intended loss defined - Intended loss means
the pecuniary harm that the defendant purposely sought to
inflict; includes intended pecuniary harm that would have been
impossible or unlikely to occur, (iii) Pecuniary Harm - means
harm that is measured in money. Accordingly pecuniary harm
does not include emotional distress, harm to reputation or
other economic harm.

29

5. Petitioner's attorney was Constituionally ineffective
when he failed to make an objection on the basis that the
transaction could not be used for sentencing puropses under
the 2014 Guidelines. Counsel's performance prejudiced the
Petitioner. Counsel's failure to investigate, and make timely
objections that these losses were not verified by the probation
department as an actual loss prejudiced the Petitioner. These
losses that were used to determined the Petitioner's sentence
in the email account from August 26, 2010 thru April 2012, were
not mentioned in the probation officer's report, but the
probation officer still used these same dates that was mention­
ed in the email account.
Had the probation officer conducted a presentence investigation
it would have been found that these dates and transactions in
the email account could not be used for sentencing purposes
because the records in the email account was an incomlete record
of transactions, and could not be considered an actual loss for
sentencing purposes. Had. counsel raised this objection the gov^
ernment would not have been able to use the 614 days 2.1 million
in tranactions outside of the ledger to sentence the Petitioner.
Agent Lowe identified these losses not the probation officer in
this case.

30

THE SIXTH CIRCUIT ERRED AFFIRMING THE DENIAL OF PETITONER'S
§ 2255 MOTION WHERE THE DISTRICT COURT FAILED TO GRANT MOTION FOR
DISCOVERY AND PRODUCTION OF DOCUMENTS PURSUANT TO RULE 6
GOVERNING § 2255 PROCEEDINGS AND EVIDENTIARY HEARING

1. Petitioner in- this case requested discovery and included
a proposed set of interoggatories. The district court erred with­
out requiring counsel to respond. See 28 U.S.C. § 2246 which
states: "On application for a writ of habeas corpus evidence
may be taken orally or deposition, or in the discretion of the
judge, by affidavit. If affidavits are admitted any party shall
have the right to propound written interoggatories to the
affiants or to file answering affidavits".
2. Petitioner's attorney did file an affidavit under the §
2255 proceedings which answers to these interoggatories would
have provide the Petitioner with the necessary proof to support
Petitioner's claim of ineffective assistance of counsel. See
Motion for Discovery (Doc. # 921 Interogatories to A. Stephens).
These interogatories Petitioner seeked to be answered were
related to the this alleged inventory search of his vehicle.
See Government's Response to Petitioner's § 2255 motion (Doc.
# 898 Pgs. # 11-12 Pg. Id. # 7853-54). Government stated:
"Thus, the incriminating evidence against Garner that was found
during a valid inventory search, even though it was not conduct­
ed pursuant to a warrant, was admissible and not subject to
suppression. Futhermore, although nothing in the record discussr
es the procedures for the inventory search that was conducted".
Mr. Stephens Affidavit (Doc. # 898-1 Pg. # 3 Pg. Id # 7865).
Counsel stated: " Contrary to Mr. Garner's assertion, counsel
looked at the stop determined there was probable cause for the
same and as a result of Mr. Garner's own sloppy activites by
having left fruit and tools of his criminal behavior in plain
view subject him to a lawful search and seizure of his vehicle".

31

3, Petitioner in this case provided the district court with
the judgment from the State court of Indiana, The State court
determined that the Plaintiff's provided insufficient evidence
to conclude that the 2005 Nissan Maxima was knowingly used to
facilitate the transportation of instruments and equipment to
obtain stolen property in excess of $ 100.00, or any crime in
Indiana, See Motion for Discovery (Doc, # 921 Exhibit # 1
Judgment State court of Indian), The district court in this case
therefore erred when it failed to have counsel answer the
interogatories pursuant to 28 U.S.C, § 2246, to prove Petition­
er's ineffective assistance of counsel claim.

l

4, Petitioner also requested an evidentiary hearing invhis
§ 2255 proceedinds. See Motion for Evidentiary Hearing (Doc. #
920 Pg. # 2). Petitioner stated: The government did respond
also see (R. 898 P. 11-12 Id. # 7853-54 which they conceded that
t'his search "was not conducted1 pursuant to a warrant," Futhermore
although "nothing in the record" discusses the procedures for
the inventory search that was conducted, " The Petitioner does
not understand why the government did not request for an evidentiray hearing to be held to’clear up this issue,"
1
5. The district court erred when it failed to conduct an
evidentiary hearing pursuant to 28 U.S.C, § 2255(b). The Petit­
ioner's files and records of the case fail to conclusively show
that Petitioner is entitled to no relief. The government has
conceded that there is "nothing in the record" that discusses
the procedures for this alleged inventory search. The record in
this case needed further development that would have entitled
Petitioner to the relief that he was seeking concerning this
alleged inventory search. The Sixth Circuit therefore erred when
it affirmed the district court's denial of Petitioner's evident­
iary hearing motion.

32

)

CONCLUSION
Petitioner, Nicholis Corey Garner, has been deprived of
basic fundamental rights guranteed by the Fourth, Fifth and
the Sixth of the United States Constitution and seeks relief
in this Court to restore those rights. Based on the arguments
and authorities presented herein. Petitioner's guilty plea
was sustained in violation of his due process, and the district
court in this case made no effort whatsoever to determine if the
plea did not result from force, threats, or promises in violate
ion of Fed. R. Crim. P. 11(b)(2). Petitioner's attorney coerced
Petitioner into pleading guilty in this case. Petitioner was
deprived of his right to effective assistance of counsel in the
district court and appellant court. Petitioner prays this Court
will issue a writ of certiorari and reverse the judgment of the
Sixth Circuit Court of Appeals. 1
Respectfully submitted on this

day of February 2021.

//%LX4 C,

Nicholis Corey Garner # 10971-028
F.C.I. Oakdale 1
P. 0. Box 5000
Oakdale, LA 71463

1 If this Court elects not to address the issues presented in this petition
at this time, it is requested that the writ issue and the matter be remanded
to the Sixth Circuit of Appeals for reconsideration in light of this Court's
opinion in McCarthy v. United States, Brady, Hill, Wong Sun, procedures
seth forth under the Mandatory Victims Restitution Act (MVRA) 18 U.S.C §
3664(a).

33

